          Federal Housing Finance Agency
              Office of Inspector General




   Kearney & Company, P.C.’s
  Independent Evaluation of the
Federal Housing Finance Agency’s
 Information Security Program –
              2014




Audit Report  AUD-2014-019  September 26, 2014
The Federal Housing Finance Agency (FHFA) Office of Inspector General (OIG) issued the subject
report on September 26, 2014. The Federal Information Security Management Act of 2002 (FISMA)
requires the Inspector General of each agency to annually conduct an independent evaluation of the
agency’s information security program. OIG contracted with Kearney & Company to perform this
audit.

AUDIT OBJECTIVE: The objective of this audit was to evaluate FHFA’s information security
program and practices, including compliance with FISMA and related information security policies,
procedures, standards, and guidelines.

Because information in this report could be abused to circumvent FHFA’s internal controls, it has not
been released publicly.




                                                                                                2
